                                                         National Railroad Passenger Corporation
                                                         Office of Inspector General
                                                         10 G Street N.E., 3W-300
                                                         Washington, DC 20002




                       AMTRAK PROCUREMENT POLICY VIOLATED
                                   JUNE 11, 2012
                                 CASE # DC-11-0291


OIG investigation disclosed that an Amtrak employee circumvented a company business practice
intended to limit the tenure of independent contractors to 2 years. An independent contractor was
retained for 7 years and was, in fact, retained for an additional year after a request to extend the
contractor had been denied by the Amtrak Independent Contractor Review Panel. The method of
paying this contractor, using multiple payment requests in amounts under $5,000 each, was also
found to be questionable. In total, the contractor was paid more than $1 million from 2004
through 2011. There was no indication of personal benefit to the responsible Amtrak employee.
This matter was referred to Amtrak management and resulted in administrative action and the
implementation of additional compliance and monitoring initiatives.
